No. 20-828

In the Supreme Court of the United States
FEDERAL BUREAU OF
INVESTIGATION, et al.,

Petitioners,

v.
YASSIR FAZAGA,

et al.
Respondents.

On Writ of Certiorari to the United States Court of Appeals for the Ninth
Circuit
CERTIFICATE OF SERVICE

Dan Stormer
Shaleen Shanbhag
HADSELL STORMER
RENICK & DAI LLP
128 North Fair Oaks
Avenue
Pasadena, CA 91103

Ahilan Arulanantham
Counsel of Record
UCLA SCHOOL OF LAW
385 Charles Young Drive East
Los Angeles, CA 90095
(310) 825-1029
arulanantham@law.ucla.edu

Amr Shabaik
Dina Chehata
CAIR-LOS ANGELES
2180 W. Crescent
Avenue, Suite F
Anaheim, CA 92801

Peter Bibring
Mohammad Tajsar
ACLU FOUNDATION OF
SOUTHERN CALIFORNIA
1313 West Eighth Street
Los Angeles, CA 90017

I, Ahilan Arulanantham, a member of the Supreme Court Bar, hereby certify
that on August 20, 2021, I caused one copy of the Respondents’ Application for
Leave to File Opposition Brief in Excess of Word Limits to be served on the counsel
of record via email and first-class mail, postage prepaid, as follows:
Elizabeth B. Prelogar
Acting Solicitor General
Room 5616, United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Attorney for Federal Bureau of Investigation, et al.
Catherine Mary Agnes Carroll
Wilmer Cutler Pickering Hale and Dorr
1875 Pennsylvania Avenue, NW
Washington, DC 20006
202-663-6000
catherine.carroll@wilmerhale.com
Attorney for J. Stephen Tidwell and Barbara Walls
Alexander Howard Cote
Winston & Strawn LLP
333 S. Grand Avenue, 38th Floor
Los Angeles, CA 90071
(213) 615-1993
acote@winston.com
Attorney for Paul Allen, Kevin Armstrong, and Pat Rose
Shay Dvoretzky
Skadden, Arps, Slate, Meagher & Flom LLP
1440 New York Ave., NW
Washington, DC 20005
202-371-7370
shay.dvoretzky@skadden.com
Attorney for Professor Laura K. Donohue
I further certify that all parties required to be served have been served.

1

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 20, 2021.

/s/ Ahilan Arulanantham
Ahilan Arulanantham
UCLA SCHOOL OF LAW
385 Charles Young Drive East
Los Angeles, CA 90095
(310) 825-1029
arulanantham@law.ucla.edu
Counsel of Record for Respondents

2

